              Audit of Eligibility Under the 85 Percent Rule at
                          Taylor Business Institute
                               Chicago, Illinois




                                 FINAL AUDIT REPORT




                                 Audit Control Number 05-90013
                                         February 1999




Our mission is to promote the efficient                     U.S. Department of Education
and effective use of taxpayer dollars                       Office of Inspector General
in support of American education                            Chicago, IL
Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken
will be made by appropriate Department of Education officials. This report
may be released to members of the press and general public under the
Freedom of Information Act.
                                                                                 February 18, 1999

MEMORANDUM
TO:            Greg Woods
               Chief Operating Officer
               Office of Student Financial Assistance Programs


FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit - Region V

SUBJECT:       FINAL AUDIT REPORT
               Taylor Business Institute
               Audit of Eligibility Under the 85 Percent Rule
               ED Audit Control Number A05-90013

Attached is the final audit report of Taylor Business Institute’s Eligibility Under the 85 Percent
Rule. In accordance with the Department’s Audit Resolution Directive, you have been
designated as the action official responsible for the resolution of the findings and
recommendations in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at 312-
886-6503. Please refer to the above audit control number in all correspondence relating to this
report.



Attachment
                                                                                      February 18, 1999

 Janice Parker, President
 Taylor Business Institute
 200 North Michigan Avenue, Suite 301
 Chicago, Illinois 60601

 Dear Ms. Parker:

 This AUDIT REPORT presents the results of our review of Taylor Business Institute’s eligibility
 under the 85 Percent Rule.

                                        AUDIT RESULTS

Taylor Business Institute (Institute) used the wrong Title IV and non-Title IV revenue amounts in
its 85 Percent Rule calculation for the fiscal year ended December 31, 1997. The Institute (1)
classified Federal Family Education Loan (FFEL) program revenue as non-Title IV revenue, (2)
included Federal Work Study (FWS) in the Title IV revenue, and (3) included revenue not derived
from tuition related activities in the calculation. As a result of these errors, the Institute reported its
non-Title IV revenues as 37.8 percent. In addition, the Institute’s accounting records used for Title
IV revenues were inadequate. Based on our audit work, we concluded that, despite the errors, the
Institute met the 85 Percent Rule by deriving approximately 31 percent of its revenues from non-
Title IV sources. However, we remain concerned with the Institute’s inadequate accounting
records. The Institute concurred with our finding and recommendations. A copy of the Institute’s
response is attached.

According to Title 34 Code of Federal Regulations (CFR) Part 668.24(a)(1), an institution shall
establish and maintain program records that document its eligibility to participate in the Title IV,
Higher Education Act (HEA) programs. To be eligible to participate, a proprietary institution shall
have no more than 85 percent of its revenues derived from Title IV, HEA program funds as
determined under 34 CFR Part 600.5(d). Therefore, the Institute is required to prepare and
maintain adequate records to support its eligibility under the 85 Percent Rule.

When examining total revenues, 34 CFR 600.5(d)(1) indicates the sum of revenues will include
only tuition, fees, and other institutional charges for students enrolled in eligible programs and
activities conducted by the institution, to the extent not included in tuition, fees, and other
institutional charges, that are necessary for the education or training of its students who are
enrolled in those eligible programs. Further, 34 CFR 600.5(d)(2)(ii) states that the Title IV, HEA
program funds included in the numerator do not include FWS program funds.
Our review of the Institute’s accounting records used for its 85 Percent Rule calculation found that
it incorrectly classified $36,256 in FFEL program Title IV revenue as non-Title IV revenue,
included $45,301 in FWS, and included $144,540 in miscellaneous revenues derived from non-
tuition related activities. The miscellaneous revenues included loans to the Institute, business
refunds, and telephone commissions. In addition, the Institute’s PMS 272 monthly draw down
totals for the Federal Pell Grant Program and Federal Supplemental Educational Opportunity Grant
Program did not agree with the ACH/EFT Voucher Request Records. According to Institute
officials, the Institute’s President arbitrarily lowered the amounts requested on the draw downs
based on the Institute’s funding needs without adjusting the supporting student lists. This practice
resulted in draw down amounts that do not agree with the amounts in the supporting
documentation. An Institute official informed us that the Institute does not have written policies
and procedures for gathering and documenting revenue figures used in the 85 Percent Rule
calculation. We believe the lack of written policies and procedures had an adverse effect on the
accuracy of the calculation and the accounting records.

In a written response to our finding point sheet, the Institute concurred with our finding and noted
that its fiscal year 1997 financial statements incorrectly reported that 37.8 percent of its revenues
were derived from non-Title IV sources. The Institute indicated that it would take corrective action
by moving to a comprehensive database software system by March 1999 to greatly improve data
tracking, retrieval, and access between departments. An Institute official told us that key
employees will attend training programs in accounting for student financial aid funds and
performing the 85 Percent Rule calculation. The Institute’s comments are attached to the report.

Recommendations

We recommend that the Office of Student Financial Assistance Programs (OSFAP) instruct the
Institute to:

       1.      Establish and implement written policies and procedures for gathering and
               documenting revenue figures used in the 85 Percent Rule calculation.

       2.      Ensure that key employees receive scheduled training in accounting for student
               financial aid funds and performing the 85 Percent Rule calculation.

BACKGROUND

Taylor Business Institute is a proprietary school located in Chicago, Illinois. The Institute is approved
by the Illinois State Superintendent of Education and accredited by the Accrediting Council for
Independent Colleges and Schools. Janice Parker, the current owner, originally owned 50 percent of
the Institute’s stock. In April 1997 the remaining 50 percent of the Institute’s stock was transferred
to Janice Parker. With the transfer she became the sole proprietor.




                                                   2
From January 1, 1997 through December 31, 1997, the Institute was eligible to participate in the FWS,
Federal Student Education Opportunity Grant Program, and Federal Pell Grant Program. The Institute
lost its eligibility to participate in the FFEL program in October 1996 due to its high default rate.
However, during the year ended December 31, 1997, the Institute received $36,256 from the FFEL
program for students who were eligible to participate in the programs before the Institute lost its
eligibility to participate.

AUDIT SCOPE AND METHODOLOGY

The purpose of our audit was to determine whether the Institute derived at least 15 percent of its
revenues from non-Title IV sources, properly reported the percentage in its financial statements, and,
if applicable, reported the failure to meet the percentage to the U.S. Department of Education. Our
audit period was January 1, 1997 through December 31, 1997. To achieve our purpose, we:

        1.      Interviewed Institute personnel.

        2.      Reviewed the audited financial statements and related working papers prepared by the
                accounting firm Kessler, Orlean, Silver & Company, P.C.

        3.      Reviewed the Institute’s 85 Percent Rule calculation spreadsheet, bank records, fiscal
                operation report, and other records relating to the 85 Percent Rule calculation.

        4.      Recalculated the 85 Percent Rule calculation.

We conducted on-site field work at the Institute between December 7, 1998 and January 7, 1999, and
performed work at the accounting firm’s office on December 8, 1998. We conducted our audit in
accordance with government auditing standards appropriate to the scope described above.

STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we made an assessment of the Institute’s management control structure, policies,
procedures, and practices applicable to our 85 Percent Rule audit. The purpose of our assessment was
to determine the level of control risk; that is, the risk that material errors, irregularities, or illegal acts
may occur. The control risk assessment was performed to assist us in determining the nature, extent,
and timing of substantive tests needed to accomplish our audit purpose and objectives.

To make the assessment, we identified and classified the significant management controls into the
following categories:

        1.      Title IV revenue

        2.      Non-Title IV revenue



                                                      3
       3.      85 Percent Rule calculation

Because of inherent limitations, a study and evaluation made for the limited purpose described above
would not necessarily disclose all material weaknesses in the control structure. However, our
assessment disclosed weaknesses specifically related to the area of performing the 85 Percent Rule
calculation. These weaknesses are discussed in the "AUDIT RESULTS" section of this report.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department official,
who will consider them before taking final Departmental action on the audit:

               Greg Woods, Chief Operating Officer
               Office of Student Financial Assistance Programs
               U.S. Department of Education
               Regional Office Building, Room 4004
               7th and D Streets, SW
               Washington, D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the resolution
of audits by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 35 days would be greatly appreciated.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press and
the general public to the extent information contained therein is not subject to exemptions in the Act.

                                                      Sincerely,



                                                      Richard J. Dowd
                                                      Regional Inspector General
                                                      for Audit - Region V

Attachment




                                                  4
Attachment
                             REPORT DISTRIBUTION LIST
                                                                                                     No. of
                                                                                                     Copies
Auditee (Original)

Action Official
Greg Woods
Chief Operating Officer
Office of Student Financial Assistance Programs . . . . . . . . . . . . . . . . . . . 1

Other ED Offices
Service Director, Institutional Participation and Oversight Service . . . . . 1

Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Service Director, Accounting and Financial Management Service . . . . . . . . . . . . . . . . . . . . . . . . . 1

Post Audit Group Supervisor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Chicago Team Area Case Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Secretary’s Regional Representative, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ED-OIG
Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Deputy Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Audit (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Investigation (Acting) . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspectors General for Operations . . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Director, Advisory and Assistance, Student Financial Assistance . . . . . . . . . . . . . Electronic Copy

Director, Planning, Analysis, and Management Services . . . . . . . . . . . . . . . . . . . . Electronic Copy

Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Regional Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Region V Audit Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (2)
